<html>
<title> - [H.A.S.C. No. 115-28]Threats to Space Assets and Implications for Homeland Security</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                
                         [H.A.S.C. No. 115-28]
 
                        THREATS TO SPACE ASSETS

                 AND IMPLICATIONS FOR HOMELAND SECURITY

                               __________

                             JOINT HEARING

                               before the

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                          [Serial No. 115-12]

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 29, 2017
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-094 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a> 


                                     
  

                      COMMITTEE ON ARMED SERVICES
                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona, Vice Chair    JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               SUSAN A. DAVIS, California
DUNCAN HUNTER, California            RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            BETO O'ROURKE, Texas
MICHAEL R. TURNER, Ohio              DONALD NORCROSS, New Jersey
MIKE COFFMAN, Colorado               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               RO KHANNA, California
SAM GRAVES, Missouri
                 Steve Kitay, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                                
                                ------                                
                    
                    COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
            Kathleen Crooks Flynn,   Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Tom Marino, Pennsylvania             Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
John H. Rutherford, Florida          Bonnie Watson Coleman, New Jersey
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
       Moira Bergin, Minority Subcommittee Staff Director/Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Donovan, Hon. Daniel M., Jr., a Representative from New York, 
  Chairman, Subcommittee on Emergency Preparedness, Response, and 
  Communications, Committee on Homeland Security.................     2
Garamendi, Hon. John, a Representative from California, 
  Subcommittee on Strategic Forces, Committee on Armed Services..     3
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces, Committee on Armed Services..     1

                               WITNESSES

Allen, ADM Thad W., USCG (Ret.), Member, GPS Advisory Board, 
  Former Commandant, U.S. Coast Guard............................     6
Nimmich, Hon. Joseph, Former Deputy Administrator, Federal 
  Emergency Management Agency....................................     9
Shelton, Gen William L., USAF (Ret.), Former Commander, U.S. Air 
  Force Space Command............................................     4

                                APPENDIX

Prepared Statements:

    Allen, ADM Thad W............................................    45
    Donovan, Hon. Daniel M., Jr..................................    29
    Nimmich, Hon. Joseph.........................................    57
    Payne, Hon. Donald M., Jr., a Representative from New Jersey, 
      Ranking Member, Subcommittee on Emergency Preparedness, 
      Response, and Communications, Committee on Homeland 
      Security...................................................    31
    Rogers, Hon. Mike............................................    27
    Shelton, Gen William L.......................................    33
    Thompson, Hon. Bennie G., a Representative from Mississippi, 
      Ranking Member, Committee on Homeland Security.............    32

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:
    [There were no Questions submitted post hearing.]
      

     THREATS TO SPACE ASSETS AND IMPLICATIONS FOR HOMELAND SECURITY

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Strategic Forces, 
            Meeting Jointly with the Committee on Homeland 
            Security, Subcommittee on Emergency 
            Preparedness, Response, and Communications, 
            Washington, DC, Wednesday, March 29, 2017.

    The subcommittees met, pursuant to call, at 2:02 p.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Mike Rogers 
(chairman of the Strategic Forces Subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES, COMMITTEE 
                       ON ARMED SERVICES

    Mr. Rogers. Good afternoon. I want to welcome you to this 
hearing on ``Threats to Space Assets and Implications for 
Homeland Security,'' held jointly by the House Armed Services 
Subcommittee on Strategic Forces and the Homeland Security 
Subcommittee on Emergency Preparedness, Response, and 
Communications.
    I want to start by thanking our witnesses for being here 
and taking the time to prepare. I know it takes a lot of time 
to prepare for these and make your expertise available. We have 
an expert panel with us regarding topics of space and homeland 
security. Though testifying in their personal capacities, they 
each have decades worth of experience with the issues being 
discussed here today.
    Our witnesses are General William Shelton, retired Air 
Force and former commander of U.S. Air Force Space Command; 
Admiral Thad Allen, retired Coast Guard and member of the GPS 
Advisory Board and former commandant of the U.S. Coast Guard; 
and the Honorable Joseph Nimmich, former deputy administrator, 
Federal Emergency Management Agency and retired rear admiral, 
U.S. Coast Guard.
    I also want to thank Chairman Donovan and Ranking Member 
Payne for joining us in support of this hearing. We have heard 
extensively from Department of Defense and intelligence 
community officials regarding the potential foreign threats to 
our space systems. The threats are real, serious, and only 
getting worse.
    Unfortunately, talking about a conflict extending to space 
isn't science fiction anymore and the impact of that threat 
extends beyond the military. It extends to our way of life here 
in the United States. There likely isn't a person in this 
hearing room, nor within the entire Capitol campus that hasn't 
utilized the services provided by satellites at some point 
today.
    For instance, aside from DIRECTV and DISH satellite TV, 
which allow me to watch Alabama play football on Saturdays no 
matter where I am--Roll Tide--the Global Positioning System, or 
GPS, is probably the most widely known space asset and for good 
reason. While I think many recognize that GPS powers their 
navigation in their cars and cellphones, they may not know or 
may not recognize the support it provides to financial 
transactions, farming, shipping, public safety, environmental 
monitoring, and a host of other areas.
    The American public may also not realize that GPS is built 
and operated [by] the United States Air Force. Potential 
adversaries recognize our dependence on it. I guarantee you 
that.
    And GPS is one of many important space systems. We spend 
time in the Armed Services Committee understanding what the 
loss of space would mean to the military and that we need to 
protect and defend those assets. But what does a loss of space 
mean to our economy and our financial institutions, our 
agricultural activities, our transportation and infrastructure?
    Today our witnesses will help us understand the importance 
and role of space regarding our homeland security and our 
emergency preparedness. The public deserves to know what is at 
stake when we are talking about the risk of loss to our access 
to space. It is my sincere hope that a conflict never reaches 
into space, but conflict has extended across air, land and sea, 
and cyberspace. Hearings like this are needed to make sure we 
are aware of the consequences we now face if it ever does 
happen and ensure that we are ready for it.
    I will now turn to Chairman Donovan for any opening 
statement he may have and then to Mr. Garamendi today, standing 
in for Ranking Member Cooper, and Mr. Payne after that.
    So Chairman Donovan is recognized.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 27.]

      OPENING STATEMENT OF HON. DANIEL M. DONOVAN, JR., A 
    REPRESENTATIVE FROM NEW YORK, CHAIRMAN, SUBCOMMITTEE ON 
EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS, COMMITTEE 
                      ON HOMELAND SECURITY

    Mr. Donovan. Thank you, Mr. Chairman.
    And thank you to all of our witnesses.
    I would like to thank you, Chairman, for holding this 
hearing today and including my subcommittee in this very 
important and timely discussion.
    In today's world, our lives are connected more than ever 
before and this is because of our space-based capabilities, 
specifically satellites. Without satellites, we cannot make 
financial transactions, communicate with cellphones, navigate 
from one location to another, fly airplanes, watch television, 
or effectively prepare for and respond to natural disasters or, 
God forbid, terrorist attacks.
    Space-based capabilities, like global positioning systems, 
satellite communications, and remote sensing, not only help our 
military operations, but have made it safer for our first 
responders to effectively and efficiently respond to a crisis 
or emergency.
    Nearly 5 years ago, my district, which includes Staten 
Island and parts of Brooklyn, was devastated by Superstorm 
Sandy. This perfect storm caused dozens of New Yorkers to lose 
their lives, thousands of homes destroyed or damaged, and for 
millions of dollars being used and spent on reconstructing 
communities, including my own.
    The preparedness and response efforts directed at 
Superstorm Sandy, while not perfect, were much better than 
previous major disasters, like Hurricane Katrina. Satellite 
capabilities were part of the reason first responders and 
government agencies had the information needed to respond 
decisively and quickly.
    Satellites are being used to enhance our Nation's 
preparedness and response efforts, especially when critical 
infrastructure is damaged, destroyed, or overloaded. I saw this 
firsthand during Superstorm Sandy. Prior to Superstorm Sandy 
making landfall, the Federal Emergency Management Agency [FEMA] 
used the storm tracking predictions from weather satellites to 
pre-position equipment and resources all along the east coast. 
Additionally, FEMA used satellite imagery to expedite the 
disaster declaration process and provide assistance to impacted 
areas.
    During this response effort, teams deployed satellite 
communications equipment and high-throughput satellite 
terminals to provide voice and internet connectivity to first 
responders and survivors. These are a few of the growing 
reasons why satellite capabilities are key to our homeland 
security.
    While we need to continue to look for ways to incorporate 
space-based capabilities into our preparedness and response 
efforts, we need to be cognizant of the threat to those space 
systems. There are numerous threats, whether intentional or 
naturally occurring, that could damage or destroy our 
satellites and significantly reduce the lifesaving capabilities 
they provide for our first responders. I am particularly 
interested in learning more today about how our Nation's 
preparedness and response efforts could be impacted if our 
space capabilities were diminished.
    I want to thank our distinguished panel again for 
testifying this afternoon, and I look forward to learning more 
about what we in Congress can do to help ensure our Nation's 
military and first responders don't lose these vital 
capabilities.
    Mr. Chairman, I yield back the remainder of my time.
    [The prepared statement of Mr. Donovan can be found in the 
Appendix on page 29.]
    Mr. Rogers. The Chair now recognizes Mr. Garamendi for 5 
minutes.

       STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE
       FROM CALIFORNIA, SUBCOMMITTEE ON STRATEGIC FORCES,
                  COMMITTEE ON ARMED SERVICES

    Mr. Garamendi. Thank you very much, Mr. Chairman and 
Chairman Donovan. Thank you for doing the joint hearing. I 
think it is extremely important.
    I know that our chairman has spent a great deal of time 
bringing us information on communication systems and the 
vulnerabilities as well as the potential that they have, both, 
mostly in the military area, but also as it extends beyond 
that.
    We do know there is enormous vulnerability on the military 
side, as the chairman pointed out. We have also spent some time 
looking at the domestic vulnerability, mostly as it has 
occurred on another subcommittee on which I am on, which is the 
Coast Guard and Maritime. And the Coast Guard has had in the 
past the navigational portfolio of the Federal Government.
    So we have looked at this and now bringing together these 
issues is extremely important and to look at the continental 
United States, Alaska, and Hawaii and other areas in the 
context of satellite communication and the necessity for a 
backup system or how to deal with all the benefits that those 
satellite communication systems bring to us from GPS and beyond 
is extremely important.
    I thank you for doing this. Mr. Cooper was called away to a 
meeting, and I was the only option available at the time he 
left, so he put me in this position.
    [Laughter.]
    Thank you very much.
    Mr. Rogers. Thank you. And Mr. Payne's statement will be 
taken for the record when he arrives.
    So we will turn to our witness panel, and we will start 
with General Shelton. And, General Shelton, before you start, I 
understand you have got some guests with you today.
    General Shelton. Actually, I do. I have got my daughter and 
her husband and my two grandsons.
    Mr. Rogers. Welcome to the hearing. Your granddaddy's an 
American hero. All right.
    General Shelton. Thank you, sir.
    Mr. Rogers. The floor is yours.

   STATEMENT OF GEN WILLIAM L. SHELTON, USAF (RET.), FORMER 
            COMMANDER, U.S. AIR FORCE SPACE COMMAND

    General Shelton. Chairman Rogers, Chairman Donovan, and Mr. 
Garamendi and distinguished members of the committees, thank 
you for your invitation to appear today to discuss threats to 
our space assets and the implication of those threats to our 
homeland security.
    I believe the vast majority of our American citizens are 
not conscious of these threats and are therefore blissfully 
unaware of the impacts on our way of life should conflict 
extend to space. I commend your committees for taking up this 
subject.
    There is a host of satellites that provide services 
essential to modern life in the United States and across the 
planet. In fact, according to the latest edition of the Space 
Report published annually by the Space Foundation, the global 
space industry is a $325 billion enterprise.
    Satellite-provided services have become analogous to 
electricity, a utility we really take for granted. Most of us 
don't need to, nor want to, know where or how our power is 
produced, but we expect our local power company to continuously 
provide the power we need to heat and cool our houses and run 
our myriad electrical devices. Space services are now a utility 
as well. Few Americans understand that fact.
    In contrast, potential adversaries are well aware of our 
dependence on satellites. Continuous combat operations since 
Operation Desert Storm in 1991 have provided an unparalleled 
learning laboratory for them. Not surprisingly, nations are now 
actively testing methods to deny us continued use of space 
services during conflict.
    They have developed a full quiver of these methods, ranging 
from satellite signal jamming to outright destruction of 
satellites via a kill vehicle, such as successfully tested by 
China in 2007. The pace of these counterspace efforts appears 
to be accelerating and the impact of the use of counterspace 
likely would be felt by all sectors of the space community.
    A few examples of existing counterspace weapons and their 
impacts: Global Positioning System and communication satellite 
jammers can deny use of essential navigation, timing, and long-
distance communication services. Advanced anti-satellite 
weapons capable of reaching all our orbital altitudes, 
including the orbits of our critical missile warning and 
strategic communication satellites, can destroy a satellite and 
create dangerous orbital debris. And the higher the altitude of 
engagement, the longer that debris will remain in orbit.
    Ground-based lasers can temporarily blind various optical 
sensors on satellites and other nations are looking to increase 
the laser power to destructive levels.
    Our space capabilities also are reliant on ground stations 
and cyber connectivity. The ground stations scattered around 
the world monitor satellite health, receive mission data from 
these satellites, and send operating commands to those 
satellites. Without the ground stations, the satellites would 
not be capable of accomplishing their intended purpose. The 
possibility of physical attacks on these satellites is 
certainly a concern.
    Equally concerning in this information age is the 
possibility of cyber attack. With cyber activity occurring at 
the speed of light, damage can be done very, very quickly. And 
attributing the activity to a particular actor is often very 
difficult and time-consuming.
    The environment of space has fundamentally shifted then 
from the ethereal sanctuary of the past to the increasingly 
crowded and contested environment of today. Broad agreement on 
this fact, however, has not produced the architectural change 
decisions to reduce those vulnerabilities.
    A recent analysis by the Cost Assessment and Program 
Evaluation [CAPE] team in the Office of the Secretary of 
Defense found that space research and development [R&D] is at a 
30-year low. The space industrial base is eroding due to this 
low level of investment. At a time when the space industry's 
engineering talent and innovation should be put to work, 
decisions to initiate new programs that are responsive to the 
threats have not been made.
    Understandably, industry is unwilling to invest internal 
R&D funds until the government makes those decisions. Because 
satellites have limited lifetimes, the lack of a decision to 
make needed changes to our architectures due to the changed 
space environment is a de facto decision to continue the status 
quo with no additional meaningful protection for our critical 
space assets.
    The last administration began initial steps toward space 
protection. The relatively new Joint Interagency Combined Space 
Operations Center has the potential to be a catalyst for how 
operations in a contested environment must evolve. 
Experimentation and eventually realistic operational exercises 
will produce revelations about operating in this new era of 
space.
    But exercises alone won't be enough if the systems in space 
are not built with prediction and mission resilience as key 
performance requirements. There simply will be no levers to 
pull to defend.
    To this point, the CAPE analysis found that of the $6 
billion added for additional space protection in the 2016 
President's budget, approximately 80 percent is currently 
allocated to non-satellite programs.
    Warfare in space is in no one's best interest. And the 
level of the United States dependence on space means we have 
the most to lose. As we consider space capability protection 
options in space, in cyber, and on the ground, we must consider 
whether our actions are stabilizing or destabilizing in the 
international arena.
    Every action we contemplate should cause us to ask 
ourselves if said action dissuades and deters potential 
adversaries from nefarious activity. We urgently need sponsors 
and funded study work on what constitutes deterrence in the 
21st century and what recommended steps would increase our 
deterrent posture.
    We need to think our way through this maze, which requires 
that we deter use of space and cyber weapons while continuing 
to deter use of nuclear weapons. The potential consequences are 
just too great for us to merely hope for the best.
    Many of us remember the tag line from the 1979 movie, 
``Alien'': ``In space, no one can hear you scream.'' From my 
perspective, apparently no one on earth can hear you scream 
about space vulnerabilities either. Many have banged the gong 
very hard since 2007, but 10 years of innumerable studies and 
policy debates have not produced tangible improvements in our 
space protection posture.
    If you know the armed burglar is on the front porch, you 
don't wait until he is already inside to take action, yet that 
is precisely our posture today.
    I thank the two committees for delving into this subject, 
and I look forward to answering your questions.
    [The prepared statement of General Shelton can be found in 
the Appendix on page 33.]
    Mr. Rogers. Admiral Allen.

   STATEMENT OF ADM THAD W. ALLEN, USCG (RET.), MEMBER, GPS 
      ADVISORY BOARD, FORMER COMMANDANT, U.S. COAST GUARD

    Admiral Allen. Thank you. Chairman Rogers, Chairman 
Donovan, Mr. Garamendi, I want to thank you very much for 
having us here today.
    Let me first associate my remarks with General Shelton. I 
take objection to nothing he has said and wholeheartedly 
endorse his comments related to space.
    I will make mine additive so we aren't duplicative here at 
the hearing today. And what I would like to do is focus on the 
civil users segment of GPS.
    I serve on the Position, Navigation, and Timing [PNT] 
Advisory Board to the GPS EXCOM [Executive Committee]. That is 
the governing entity for GPS in the country, that is co-chaired 
by the Deputy Secretary of Defense and the Deputy Secretary of 
Transportation.
    The PNT Advisory Board is a subject matter expertise group 
that provides them recommendations. Many of my comments today 
and recommendations are grounded in conversations that have 
been held in public fora associated with that advisory 
committee and reflect my peers and our collective view of the 
threats and vulnerabilities and what to do about them moving 
forward.
    What I would like to do is talk about vulnerabilities 
related to GPS in a little bit more detail and offer a strategy 
on how we might want to proceed that has been well-discussed, 
at least among my peer group.
    We need to understand in addition to the comments made by 
yourselves and General Shelton the ubiquity of GPS chips and 
receivers. They basically permeate all critical infrastructure. 
This is an issue for homeland security. And in addition to the 
examples already given, it is the phasing of electrical 
generation distribution and down to the microsecond as you 
noted in financial transactions.
    The father of GPS is generally regarded as Dr. Brad 
Parkinson, a professor emeritus at Stanford who I work with on 
the PNT Advisory Board. And he, together with our peers, have 
come up with a strategy that I would like to go over with you 
today that talks about the vulnerabilities and where we might 
go with them.
    Let me just quote Dr. Parkinson first, though: ``The first 
prerequisite for GPS-based position, navigation and timing is a 
receivable, clear and truthful (truthful implies full 
integrity) ranging signal, and the second is satellite geometry 
for the user who cannot see enough of the sky.''
    The second challenge really requires a denser constellation 
of satellites and I will talk about the larger, global, 
navigational satellite system later.
    But in regard to the five challenges, the challenges 
related to availability, let me just talk about five challenges 
that we have put forward.
    First is adjacent spectrum interference. Power signals in 
adjacent bands to GPS can drown out the signal denying use. In 
some cases, this is caused by FCC [Federal Communication 
Commission] authorized users where the implications of 
licensing decisions are not understood or issued with 
insufficient testing.
    There is natural interference from phenomena such as solar 
flares.
    There is inadvertent, natural or man-made jamming. These 
are cases where use nearby can cause spurious or destructive 
emissions.
    There is collateral interference. These are privacy devices 
individuals use to shade where they are at. They can interfere 
with GPS signals as well.
    And then finally, deliberate jamming or spoofing.
    In looking how to deal with these threats to GPS, my body 
recommends, and I recommend personally in my personal capacity, 
a strategy of protect, toughen, and augment. I would like to 
break that down to three segments for you, sir.
    First on protect, we need to protect the signal. We need to 
protect the signal and the delivery system. We need to create a 
deterrent to illegal jamming. We need to control the 
manufacture and web sale of jammers, which is pretty unabated 
right now. We need to improve jamming detection. We need to be 
able to localize and pinpoint jammers. And to the extent that 
we can eliminate jamming altogether, we should try and do that 
and that means to be able to find and fix inadvertent or 
illegal jamming.
    And finally, where we have reason to believe that laws have 
been violated, we need to prosecute offenders and set up 
consequences for these actions.
    Regarding toughening, we need to toughen receivers. There 
is a number of ways we can do that. Some receivers can be 
toughened by merely shading through barriers any nearby 
interference. There is something called signal beam steering by 
antennas where you basically separate the beams, but it is 
expensive to toughen receivers this way and it creates a huge 
expense for ordinary users.
    We can integrate GPS with other navigation tools, such as 
inertial systems. There is always the option to increase GPS 
signal power, but that is not likely due to expense. GPS was 
created with a very low signal decades ago without the thought 
that it would ever be as ubiquitous as it is now and the signal 
would be put at risk.
    And finally, you can separate the GPS signals to allow more 
effective and discrete processing.
    The third PTA, protect, toughen and augment, is augment and 
by that means to augment the signal itself. One way is to start 
looking at the international global navigation satellite 
systems. And that would be Galileo, GLONASS, the Russian 
system, and the Chinese BeiDou system, and see where we can 
create compatibility, interoperability, or interchangeable 
systems.
    There also is something called pseudolites or pseudo-
satellites which are ground-based equivalent performance of 
satellites. However, they are limited in their range and they 
cause frequency interference as well.
    And finally, eLORAN [Enhanced Long Range Navigation]--
eLORAN is a terrestrial system. It was a system largely in use 
before GPS was created. It is a high-power, low-frequency 
signal that can follow the curvature of the Earth. It can also 
penetrate urban canyons where there are problems with GPS.
    In 2009 when I was the commandant and the new 
administration came in, there was a decision taken to effect 
cost savings and we terminated the upgrade of the existing 
LORAN-C [LORAN Revision C] or any development requirements for 
eLORAN, contrary to domestic agreements that had been made and 
international agreements that we would pursue this.
    We have been in an 8-year hiatus and now there is active 
discussion about whether eLORAN is a competent terrestrial 
backup to GPS. My counsel to these committees are that the time 
is over for talking about this. We need to make a decision and 
move on.
    And I would be happy to answer any questions.
    [The prepared statement of Admiral Allen can be found in 
the Appendix on page 45.]
    Mr. Rogers. I thank you for that statement.
    And now we turn to Mr. Nimmich for his opening statement.

STATEMENT OF HON. JOSEPH NIMMICH, FORMER DEPUTY ADMINISTRATOR, 
              FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Nimmich. Good afternoon, Chairman Rogers, Chairman 
Donovan, and Mr. Garamendi and the other distinguished members 
of the subcommittee. Thank you for the opportunity to testify 
about the critical role of satellite technology and preparing 
for, responding to, recovering from, and mitigating both 
natural and man-made disasters.
    The use of satellites and satellite-derived data is mission 
critical for emergency management operations. Emergency 
managers require extensive, timely, and accurate information to 
make critical lifesaving and life-sustaining decisions.
    The decision-making information comes from a multitude of 
sources with satellites being one of the most critical. 
Satellites, both national and commercial, inform almost every 
aspect of emergency management, allowing responders to act 
faster, smarter, to preserve the safety and security of the 
American public.
    The National Weather Service depends on weather satellites 
to monitor and collect information about evolving weather 
systems that are the primary cause of natural disasters. These 
include tropical systems, tornadoes, flash floods, winter 
storms, dust storms, volcanic eruptions, forest fires, and 
geomagnetic space storms to help forecasters predict future 
weather events and increasing accuracy.
    I am going to deviate from my comments to talk about what 
just was occurring last night and will occur today in the 
Midwest, Texas, and Louisiana. Those tornadoes were predicted 3 
days ago by our weather services. That allowed emergency 
managers to be prepared for, put extra staff on, and to alert 
the American public in those areas at a much better and more 
lifesaving capability.
    Emergency managers require these short- and long-term 
forecasts to carry out their missions. Advanced knowledge of 
incoming storms, as I just discussed, allows leaders and 
emergency managers to pre-position assets in a safe location to 
provide assistance to mitigate the impacts of both river 
flooding and storm surge, the two most life-endangering events.
    Satellites provide critical communication and coordination 
for response operations. Data and voice communications are the 
nervous system of an effective response. During disasters, 
commercial communications are often severely overloaded.
    In spite of the overtaxed lines, national satellite 
communications ensures emergency responders are able to 
continue to communicate and maintain connectivity at all times. 
Emergency managers across the country rely on the national 
communications capability during the most severe events.
    Satellite data preserves one of the most valuable resources 
in emergency management: time. Time, and more specifically 
advance warning, is the difference between life and death in 
many events. Local emergency managers can order evacuations 
based on solid predictions supported extensively by satellite 
data.
    Emergency managers and city planners utilize satellite data 
in developing and maintaining critical evacuation routes. While 
evacuations are synonymous with hurricanes, new satellite 
technology is also improving predictive capabilities to support 
flash flooding and evacuations and tornado events. Evacuation 
planning for man-made catastrophes is also ongoing.
    This advance knowledge allows FEMA to pre-position assets, 
build accurate staffing models, and more precisely allocate 
limited resources to where they are most needed and rapidly 
adjusts to ever-changing situations. The ability to pre-
position resources and make real-time adjustments is critical 
to an effective emergency response that saves lives.
    Satellites are also critical to local, State, and Federal 
recovery missions. Satellite imagery and geospatial analysis 
has enabled FEMA to accurately determine house-to-house damage 
assessments and expedite millions of dollars of rental 
assistance to disaster survivors. This capability reduces the 
cost to the taxpayer as damage assessments can be derived from 
satellite imagery at a fraction of the cost of ground 
inspections. In some cases, up to 90 percent less costly.
    A single satellite image can cover hundreds, even thousands 
of square miles and provide cheaper and timelier data to 
deployed teams, especially in remote areas.
    I cannot leave my comments allowing you to think that 
without satellites there would be no response to disasters. 
Every level of emergency management prepares for emergency 
response where there is limited access to information, 
including satellite information and communications capability. 
But to be very clear, responses to emergencies with degraded 
satellite information will be less timely, less capable, less 
efficient, and less effective.
    Satellite supports every aspect of emergency managers' 
efforts to prepare for, mitigate against, respond to, and 
recover from disasters confronting our Nation. It is critical 
that the Federal Government continue to invest in these 
capabilities and ensure their reliability if we are to support 
the American people in their time of greatest needs.
    Thank you for this opportunity to testify today, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Nimmich can be found in the 
Appendix on page 57.]
    Mr. Rogers. I thank all of you for those opening 
statements.
    I now recognize myself for questions.
    General Shelton, I think I know the answer to this, but for 
the record, are we moving as a nation at the speed we need to 
in order to address the threats you laid out in your opening 
statement? And if not, why not?
    General Shelton. Congressman, let me take you back to 2007. 
I was the commander of 14th Air Force at Vandenberg. We were 
monitoring the Chinese ASAT [anti-satellite weapon] test in 
progress. And I was in my operations center, and I watched that 
successful engagement. And I don't remember if I said this out 
loud, but I pushed back from the table, and I said the world 
just changed because that is not a simple engineering feat. And 
yet, here we are 10 years later and we don't really have a 
whole lot to show but a pile of studies for our protection 
posture.
    And I really think there are three things here. I think 
there are some policy decisions that need to be made. Our 
policy is actually pretty permissive, but we need to make those 
policy decisions at the highest levels to commit to protecting 
our space assets.
    There are also funding constraints. You know, I mean, that 
is the age-old story for all of you, but we do have via 
sequestration, via some other priorities, some constraints on 
how much money is available to spend on satellite protection.
    And we have also been part of this ``one more study'' kind 
of attitude. Well, that may not be the perfect answer, so let 
us just do one more study. And meanwhile, time marches on. And 
as I said in my written statement, since satellites have fixed 
lifetimes and you need to plan for the death of a satellite, a 
decision not to move forward is a de facto decision to maintain 
the status quo with no additional protection.
    Mr. Rogers. Mr. Nimmich and Admiral Allen, in your 
experience, does the left hand know what the right hand is 
doing in the United States Government regarding space threats 
and dependence? For instance, the Department of Defense knows 
that there are threats and are working to address them.
    However, to what extent does the Department of Homeland 
Security and FEMA and other appropriate organizations, to what 
extent are they aware and are working to ensure that they can 
execute their missions when necessary?
    Admiral Allen. Sir, with all due respect I would say left 
hands and right hands. As we move forward, I would just 
underscore what General Shelton said regarding the one more 
study. We have become very effective at miring problems in this 
country. We have governing processes that don't have a clear 
lead agency for developing requirements where the programs of 
record should be for funding.
    And in my view, until we start to address the overall 
structure of how we govern, these things are going to continue 
to have a discussion over whose base is the funding going to 
come from, who should lead the study, how do we develop 
requirements. And if you put on that gaps created by changes of 
administration, this drags on and on and on.
    And I think it is time, if we are going to be serious about 
it, we have to look at the governing process that can produce 
answers more quickly.
    The government has always had a problem in adjusting and 
deploying technology. But at the rapid rate of advancement, 
especially with the capabilities of our adversaries, we are in 
a stern chase and following further behind unless we revisit 
how we are actually going to make these decisions.
    Mr. Nimmich. Sir, my experience in DHS [Department of 
Homeland Security] would indicate that they don't own them, 
therefore they look for somebody else to be able to ensure 
their operability.
    As Admiral Allen pointed out, I think one of the challenges 
you have got with satellite and space-based capability is the 
fact that there is no specific critical infrastructure section 
inside DHS. And the structures, the way they look at critical 
infrastructure, it is embedded across all of the different 
critical infrastructure. Therefore, it becomes harder to focus 
on.
    But I would tell you that it is, again, a consumer 
mentality that we are consuming the capabilities that are 
provided by others, both commercial as well as national assets. 
But we are expecting those people that provide them to provide 
the reliability and the defenses against them.
    Mr. Rogers. I thank you.
    The Chair now recognizes Chairman Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    Admiral Allen you pointed out something we in Congress 
could do about the jamming devices.
    You have mentioned many challenges, the three of you, the 
entire panel. What are some of the steps that you think 
Congress should take to address some of the challenges that 
each of you have pointed out during your testimony?
    Admiral Allen. There are a number, but let me just focus on 
a couple that would almost appear to be simple. The first one 
is easy access to jammers via the internet. A lot of these 
actions are illegal, but hardly enforceable. This requires a 
unity of effort across government. We have just spoken about 
that. It also requires a level of cooperation between the 
departments and agencies and the independent regulatory 
authorities, such as the FCC and the FTC [Federal Trade 
Commission], moving forward.
    But the whole issue of widely available jammers, lack of 
prosecution or consequences associated with their use, and then 
the ability for those to be in the hands of either folks that 
are involved in criminal activity or terrorism, is a clear 
vulnerability that we should address. And if I were to focus 
anything specifically, it would be that.
    And the second one is adjacent spectrum inference which is 
another issue regarding signal-to-noise ratio and whether or 
not GPS signals can be disrupted.
    But the availability of jammers, I think, is something we 
have to address.
    Mr. Donovan. General.
    General Shelton. Yes, sir. This is going to sound 
incredibly naive to you, but I think the executive branch and 
the legislative branch could get together and agree on a 
strategy and a way forward and then move out and execute.
    I don't see any other way. There has to be some broad 
agreement here in the whole of government as we move forward.
    Mr. Donovan. Thank you, sir.
    Mr. Nimmich. Sir, I think one of the things when we look at 
FEMA and the challenges we face is try to eliminate single 
points of failure. We are talking about jammers and signal 
strength, but the potentials of a geomagnetic storm taking out 
entire swaths of satellite capability exists.
    I think that we do need to look at a backup system of some 
sort, whether it be LORAN-E or some other capability. But we 
have put all of our eggs in one basket and that basket is 
fragile.
    Mr. Donovan. That was actually my next question to you. In 
the case of a disruption in our capabilities, our first 
responders have backup methods in order to efficiently or as 
efficiently as they can--I know you mentioned in your testimony 
one of the things if the systems go down is going to be the 
time in which they could react or the time in which they get 
advanced notice of those tornadoes that you spoke about. Do we 
have backup systems in place?
    Mr. Nimmich. So responders, first responders and emergency 
managers responded to disasters before there was satellite 
capability. Satellite capability has enhanced and improved all 
of the responses as you have pointed out, Chairman.
    And what we do is we continue to ensure that we have the 
proficiency in those pre-satellite capabilities. If GPS goes 
down, can we use the national grid and train our people both at 
the State, the local, and the Federal level to be understand 
what the national grid is and we exercise those. Cascadia 
Subduction Zone, 2015, national level exercise, used national 
grid capability.
    We look at the redundant capabilities that HF allows us in 
communications, HF frequency communications, high-frequency 
communications. That has been tested all the way down to the 
amateur radio operators who are some of probably the most 
proficient and the most wide-ranging across this country.
    In that same exercise, NORTHCOM [U.S. Northern Command] 
worked with FEMA to be able to have members of the national 
amateur radios actually engage with us and provide information 
that came up.
    So there are systems that allow us. They are not as 
efficient. They are not as effective. They don't take away 
duplication of effort, so there would be a slower response no 
matter how you look at it, sir.
    Mr. Donovan. And your recommendation would be that we 
invest in a backup system?
    Mr. Nimmich. I think anything that provides the ability, 
not just from the response side, but the recovery piece. And I 
think we mentioned in the chairman's office the fact that most 
of the individual assistance, you are well aware in Staten 
Island, the number of people that were either left homeless or 
didn't have resources, the Federal Government provides a 
certain level of resource up to about $30,000. That is all done 
electronically. And if GPS fails and there is no timing 
mechanism, then those transfers don't go into their accounts 
and now we worry about life-sustaining capability, not just 
lifesaving capability.
    Mr. Donovan. I thank you all for your testimony and your 
response to my questions.
    Thank you. I yield the rest of my time, Chairman.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes Mr. Garamendi.
    Mr. Garamendi. The members of your subcommittee, Mr. 
Chairman, are well-aware of where I am likely to take this 
conversation to eLORAN. And so my apologies to all of them for 
once again raising this issue.
    For Mr. Donovan and your committee, you may not have had 
the opportunity to be so bored as I carried on about this 
issue. But we have been at this some time, principally from the 
Coast Guard and Maritime Subcommittee side of it, which 
actually happens to be in the Homeland Security Department and 
so there is interaction there.
    General Shelton, you laid out very well in your testimony 
the overarching situation we are faced with, the dependence on 
satellites, the vulnerabilities that they have. And we have 
heard that repeatedly from you and from your successors in our 
subcommittee.
    So I really want to go to Admiral Allen here and the rest 
of you can chime in along the way.
    Your testimony is a little different than most of what we 
have heard. You actually are suggesting solutions.
    And I believe, General Shelton, you have told us very 
clearly that it lies in decisions that have to be made.
    And just running through the recommendations that you have 
made, Admiral Allen, I am going--protect the signal, jammers, 
there ought to be a law. There ought to be a law. It ought to 
be illegal, and certainly that would come under the Homeland 
Security Committee.
    And there are four different recommendations here. Some are 
different, but they basically say there ought to be a law. If 
you have a jammer, it is illegal to use it and it is illegal to 
manufacture and sell it and you are going to get prosecuted. 
That is something we can do. And I must tell you, it is very 
important.
    Well, since my cellphone is actually working on the 
internet here, I could probably order up a jammer legally and 
probably put this entire committee out of commission with that 
jammer.
    Toughen receivers, these are rather important things, all 
of which can be done. Physical barriers to the receivers, 
whomever that receiver is that has that, they should be aware 
and they should deal with it.
    Augmenting the signal gets me to where I really want to go. 
And this is something that we have dealt with many times in 
committees, in various committees actually.
    Some of these have all been discussed, but here we really 
need a decision. And last year in the transportation 
legislation, we passed out of this House a decision to move to 
the eLORAN system and to go with a public/private partnership 
to make that happen. It did not survive the conference, 
unfortunately. I think people who know me know that I am going 
to try again on this one.
    But basically it sets up a mechanism for the home security 
secretary and the commandant of the Coast Guard to put together 
a request for proposal for a public/private partnership that 
would build out the eLORAN system.
    The eLORAN system, and, General Allen, I am going to leave 
it to you to describe because I could not do it nearly as well 
as you could, could you please describe how an eLORAN system 
could be built in the United States?
    Admiral Allen. Yes, sir.
    Mr. Garamendi. And then how that might be able to be 
accomplished.
    Admiral Allen. Let me describe what LORAN is. LORAN is a 
hyperbolic aid to navigation, a signal that is transmitted, 
high-power, low-frequency, follows the curvature of the earth. 
A second signal is transmitted. When you receive both of those 
signals, you take the difference between them, and I am 
oversimplifying this, and it puts you on a hyperbole between 
the two points and multiple lines give you a position.
    eLORAN is an advancement of this basic technology, it has 
been around since the end of World War II, that would allow 
additional information to be transmitted with a signal, a 
higher degree of accuracy and then produce the three things 
that GPS does produce, position, navigation, and timing. It 
does require the construction of terrestrial antennas, big, 
large radio stations, if you will, to be able to transmit that 
signal.
    We were actively looking at this in 2009 and with the 
change of administration it was decided that the eLORAN program 
would be terminated as a cost efficiency. And again, as I noted 
in my written testimony, we are at a point now where we are 
actually starting over again where we were 8 years ago.
    Mr. Garamendi. There are three different parts to this: 
position, timing, navigation. The timing is essential for the 
operation of virtually everything, from the electrical grid to 
cellphones and ATM [automated teller] machines and the like. 
Positioning and navigation are an additional that GPS adds. Can 
we do an eLORAN system for timing only and then add to it later 
the position and navigation?
    Admiral Allen. You can, sir. There is a timing signal that 
is being transmitted from a tower in Wildwood, New Jersey, 
right now to test just that, the timing signal. Yes, sir.
    Mr. Garamendi. What would it take for those signals, both 
timing, position, and navigation, to be built into one of these 
or ATM machines or whatever else?
    Admiral Allen. That is a little bit of a different 
challenge, sir, because we stopped building LORAN receivers 
when there was no signal to be received. There has been some 
talk in Europe and some movement to combine both eLORAN over 
there and Galileo which is their global navigation satellite 
system or their equivalent of GPS.
    One might envision in the future with advances made in 
computation and [miniaturization] that you could hold an eLORAN 
receiver and GPS receiver in the same device for a redundancy. 
Right now if you are using an iPhone 6 or above, you have both 
a GPS chip and Russian GLONASS chip in it to ensure redundancy 
and reliability.
    And I might add that we need to take a look at how we 
interface with these other systems and how we bring it into a 
situation where we can assure reliability and signal integrity 
and take advantage of those signals as well.
    Mr. Garamendi. Final question and this goes to General 
Shelton.
    How important is a backup system to the work that you did 
before you retired?
    General Shelton. Sir, we tried to have backups to 
everything we did.
    Mr. Garamendi. We have done some studies of this in 
committee and hopefully I don't get out of bounds here, but it 
seems to me that in the command and control of the nuclear 
weapons system that backups are exceedingly important. And 
without going into any of the detail, could the eLORAN system 
be a backup system at least for some of those command and 
control mechanisms?
    General Shelton. You know, sir, I couldn't answer that on a 
technical level. Maybe Admiral Allen could. But as I understand 
eLORAN, it is more about navigation and timing and less about 
direct communications.
    Mr. Garamendi. It is a very powerful, low-frequency radio 
signal capable of transmitting data and information one way. Is 
that correct, Mr. Allen?
    Admiral Allen. Yes, sir.
    Mr. Garamendi. Excuse me, Admiral.
    Admiral Allen. It is all right. I was a commanding officer 
of a LORAN-C station in Thailand in the war in Vietnam. And 
information has since been declassified. There was actual work 
being done on whether or not you could augment a LORAN signal 
for a fleet broadcast to naval units who are operating in the 
area. So it has been demonstrated you can use a LORAN signal to 
transmit command and control information.
    Whether or not that is the solution for the nuclear 
enterprise I don't want to comment on that, but it has been 
demonstrated that signal can be used as a communications 
channel as well.
    Mr. Garamendi. And my final is my own comment. To do the 
navigation timing, we could do it with a public/private 
partnership. The Federal Government could or could not engage, 
but it is about somewhere south of a hundred million dollars to 
set it up. And that is for the timing issue that allows these 
things to operate, not your location and your mapping wouldn't, 
but at least you can do your ATM work remotely. That is a cheap 
solution on one of the pieces of it.
    Admiral Allen. Yes, sir. This is not a technology issue.
    Mr. Garamendi. Thank you. Thank you very much for the time.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Oklahoma, Mr. Bridenstine, for 5 minutes.
    Mr. Bridenstine. Well, thank you, Mr. Chairman.
    I wanted to focus, Admiral Allen, on your position on the 
PNT Advisory Board. You mentioned that some systems use 
pseudolites. Can you tell us, does the U.S. GPS constellation 
take advantage of pseudolites?
    Admiral Allen. They are available and they have been 
proposed. My understanding is, and I am not going to get in 
over my depth of water here, my technical background, 
pseudolites are limited in their range because they are 
terrestrial based and the amount of power needed can cause 
disruption with GPS signals. I think it is a general consensus 
opinion of the folks that I talk with that that would not be a 
suitable backup.
    Mr. Bridenstine. Can you tell me if the BeiDou system 
operated by the Chinese, does that use pseudolites?
    Admiral Allen. Not directly. But since you mentioned 
BeiDou, there is an issue about whether or not we want to take 
an international look at all of these global navigation 
satellite systems and see if we can come up with some common 
way to create interoperability and whether or not these signals 
can be used for redundant and backup purposes for the other 
signals.
    I think the leading candidate to do that right now would be 
Galileo, the European Union system. But the international 
governance structure over the top of this is maturing as well. 
And there are some options we could explore internationally, 
but it has been limited to date.
    Mr. Bridenstine. Well, let me ask, you mentioned 
pseudolites as one of the augmentation capabilities that might 
help mitigate whether it is jamming or spoofing or some other 
signal problem that you have with GPS. Do you still believe 
that?
    Admiral Allen. In my testimony I listed it only because for 
the purpose of discussion we have looked at all possible areas 
where you could protect, toughen, or augment the signal. 
Pseudolites are a way to augment the signal, but the downside 
associated with that in terms of coverage area and the amount 
of power that is used makes it not an advisable backup.
    Mr. Bridenstine. So does anybody use pseudolites right now 
as an augmentation that you know of?
    Admiral Allen. Oh, I think there are pseudolites being 
used, but I don't think it is in any type of a coherent 
government structure.
    Mr. Bridenstine. Okay. General Shelton, do you have 
thoughts on that?
    General Shelton. Well, the only thing I would say in 
addition to what Admiral Allen said was, one of the problems 
with the GPS reception is it is easily blocked by big buildings 
or canyons on earth or mountains, you know.
    Mr. Bridenstine. The site of your aircraft.
    General Shelton. Exactly.
    Mr. Bridenstine. Yes.
    General Shelton. So if you have got a ground-based attempt 
at augmentation here, like he says, the coverage isn't very 
great, plus you have got these potential interruptions in the 
coverage, you know, just due to geography or buildings or 
whatever.
    Mr. Bridenstine. Okay.
    Admiral Allen. Within the level that we can talk about in 
this room here, there are localized augmentation options that 
are being looked at for in-theater loss of GPS for operations. 
But probably not the focus of this hearing.
    Mr. Bridenstine. When we talk about eLORAN, as Mr. 
Garamendi was talking about, we think about it being maybe a 
solution to maybe if you lose GPS. At the same time, can you--I 
mean, right now, of course, our systems aren't designed for it. 
But if they were, could you use eLORAN in order to, you know, 
to drop a JDAM [Joint Direct Attack Munition], a precision-
guided munition.
    Admiral Allen. I would defer to General Shelton.
    General Shelton. First you would have to figure out how you 
are going to receive that signal for a signal that is really 
intended for kind of nap-of-the-earth coverage as opposed to 
coming from space.
    Mr. Bridenstine. So when we drop a GPS-guided weapon, we 
have very precise measurements that come from the Geospatial-
Intelligence Agency and we are able to know that we have a 
designated mean point of impact and there is a certain circular 
error probability for every weapon that we drop that we know we 
are going to hit that target.
    If we went with eLORAN, I would imagine none of that 
exists, none of that has been tested or proven, which means 
that it wouldn't necessarily be perfect, although certainly 
being able to navigate is important. But using it for 
precision-guided munitions would probably not be something we 
would be able to do for a number of years.
    General Shelton. Significant testing program would be 
required, no doubt.
    Admiral Allen. If I could just add, my comments were 
directed at the civil user community.
    Mr. Bridenstine. Oh, okay, civil user, got it.
    Well, a couple of other things. As far as remote sensing 
for FEMA when we talk about ultimately if there is some kind of 
natural disaster, we have to figure out what happened and get 
the right information to the right people.
    A lot of the satellites that do that remote sensing are 
commercial nowadays. And of course, the Geospatial-Intelligence 
Agency has a huge, you know, desire to have more information, 
more data.
    One of the challenges we have and one of the reasons I 
think the National Space Council would be so important is 
because we need to get those satellites licensed quicker. They 
are being licensed, of course, by NOAA [National Oceanic and 
Atmospheric Administration], but they have DOD [Department of 
Defense] implications, they have FEMA implications. There is a 
whole-of-government challenge here, an interagency problem that 
we have to deal with. So that is another topic.
    And I would leave this with Chairman Donovan and Chairman 
Rogers. We have heard General Shelton talk about this being 
infrastructure. This is an important point that General Shelton 
made, that space is now infrastructure just like the grid. And 
when we do an infrastructure bill, which I know the President 
wants to do an infrastructure bill and it seems to be that 
there is bipartisan support for that, I think space ought to be 
a big part of that infrastructure bill.
    And with that, I will yield back.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin, for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for your testimony and also 
for your service to the Nation and the various contributions 
you have made to keeping us safe.
    So following on the issue of critical assets, so cyber 
exploitation of our critical infrastructure is one of the 
greatest threats to our Nation as I see it right now and that 
we face as a country today. And in your testimonies, you have 
alluded to the fact that our satellites and space assets should 
in fact be included in this category and that we must protect, 
toughen, and augment these assets.
    So what actions have we taken to ensure that we are 
protecting these critical assets? And how are we mitigating our 
risk and preventing against cyber attacks on our satellites?
    General Shelton. I think the satellites themselves are very 
secure. Without going into any detail on that, I think the 
satellites themselves are well-protected from cyber attack.
    The ground stations, however, are an avenue of attack for a 
potential adversary. We have done everything we know to do to 
harden those ground stations against cyber attack. But as we 
have seen in many instances, there are cyber surprises. And so 
to take any comfort in the fact that our hardening has been a 
forever fix, so to speak, I don't think that is the appropriate 
attitude.
    Continuing to improve cyber defenses at all our satellite 
ground stations has got to be a priority.
    Mr. Langevin. So one of the things that I am greatly 
concerned about is miscalculation on behalf of our enemies and 
adversaries, that they might think of our satellite 
architecture as assets where they could take action as sending 
a message or thinking that it is a standoff action that would 
help to deescalate a situation, where in fact those are 
critical national assets that we depend on and that we would 
see as, I believe, a red line.
    Do you think that we have done enough to convey to our 
enemies and adversaries what critical national assets these are 
and that we will use all assets of national power to protect 
them and that were they to take action against one of these 
assets that we would consider it more than just a deescalatory 
action or that it is expendable, but it is something that we 
would respond to very harshly?
    General Shelton. Sir, that is a very interesting question. 
And during the Cold War, there was if not explicit, there was 
certainly implicit agreement that certain satellites were 
strategic assets and you didn't do anything to interfere with 
their operation. That was at least a tacit agreement between us 
and the Russians.
    I don't believe that same level of agreement exists with 
the Chinese. We have seen in their public writings that they 
consider this just as another opportunity to take away a 
strategic advantage that an adversary would have.
    Our policy is very clear. We do say very clearly in 
national space policy that we consider an attack on those 
assets as vital interests. So it is not prescriptive, it is not 
an if/then statement, but it is fairly clear in diplomatic 
language what we mean by that.
    Mr. Langevin. Thank you.
    To the panel, I also feel strongly that our satellites are 
like flashlights in the dark, that they are allowing us to see 
what is not readily observable using traditional technologies, 
particularly when it comes to climate damage.
    How does climate damage threaten our national security 
interests? And how do our space-based systems and data-driven 
tools help FEMA to evaluate the threat and prepare for it?
    Mr. Nimmich. Sir, as you know, the nature of the rising sea 
level as well as the climatic differences that are causing 
massive rain events that have not been realized before are 
causing extensive damage to both individual as well as national 
capabilities.
    We use an awful lot of the climatology information that is 
provided by satellites, as well as satellite use in terms of 
being able to determine where the risk will be in the future. 
So we are working closely with NOAA in terms of surge modeling 
that didn't exist before so that we can actually identify what 
the storm event may cause damage, flash flooding, and others 
through our risk map programs and just looking at the natural 
transition that is occurring in terms of the nature of the 
storms that are there.
    So the ability to understand future impacts along our 
coastal and our most vulnerable cities and infrastructure are 
exactly what we are using.
    Mr. Langevin. Thank you. Admiral, did you have anything to 
add?
    Admiral Allen. The whole notion of sensing is something 
that we are coming to grips with in the complexity we are 
dealing with with increasing interaction between the built 
environment and the natural environment. We are seeing, as 
Admiral Nimmich said, events of greater frequency and greater 
consequence and greater scope and scale.
    Space-based technology have the opportunity to help us out 
in some other ways. It is possible with GPS signals to detect 
very small changes in elevation and other parameters that would 
give us a warning that there might be seismic activity or even 
the density of water vapor might help us predict storms. So 
this is all something that is there, we can use it, and we need 
to move forward very aggressively and employ it.
    Mr. Langevin. Very good. Thank you all for your testimony. 
And I yield back.
    Mr. Rogers. Thank the gentleman. The Chair now recognizes 
the gentleman from Florida, Mr. Rutherford, for 5 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your testimony today.
    I go back to something that General Shelton said earlier 
about Congress and the executive branch getting together and 
moving forward and defining roles. And you talked a little bit 
about responses, Admiral Allen did.
    Oddly enough, that was one of the things that came out in a 
discussion about cyber attacks and warfare, too, is this 
inability to really define whose roles and responsibilities are 
at play in protection and prosecution and those things.
    I would ask, we talked about the government response, I was 
wondering in this, like in the cyber world, where does private 
industry, what responsibilities do they accept when they go 
into space?
    Admiral Allen. Let me talk on the user side and then maybe 
General Shelton would like to comment.
    Mr. Rutherford. Thank you.
    Admiral Allen. There are very few critical infrastructures 
that don't have embedded GPS receivers someplace. And so you 
need to talk about the responsibility of the private sector in 
carrying out their own enterprises and basically standard of 
care if you will.
    In this case, GPS PNT issues and cyber issues are not that 
far apart. We are operating in an area where the technology is 
advancing. We are operating in an area where some of the legal 
frameworks for international cooperation and what constitutes, 
say, an act of war or a crime are not as clear and we are faced 
with the challenge of defending, protecting, and even using 
offensive operations simultaneously in the same environment. 
Very, very confusing moving forward.
    But from the civil side, there is a discussion going on 
right now with Homeland Security and the critical 
infrastructure sectors about what it means to have 
vulnerabilities in industrial control systems and other areas 
where you have GPS receivers that, if they were denied that 
service or spoofing or jamming, what it might do to that 
critical infrastructure sector. And I think that is a current 
focus, but it needs to be continued.
    Most of those upgrades to reduce those vulnerabilities 
don't happen unless it is part of an operations maintenance 
cycle because there is no monetary incentive for companies to 
do that and we have to change that.
    Mr. Rutherford. Thank you, sir.
    General Shelton. Sir, I think a good analogy is the 
maritime domain. You know, people operate in the maritime 
domain, they don't have any defensive capability, they don't 
worry about protection. They count on host-nation support and 
the United States Navy support for U.S.-flagged vessels.
    Same thing in space, I think. Private industry is not 
concerned about coming under attack because they think we are 
going to provide the protection for U.S. assets. And 
unfortunately right now, it is just not so.
    Admiral Allen. If I can maybe just add another comment. And 
I will try and quote, I may not do it exactly right, our former 
colleague, Keith Alexander. He and I were on a panel last week 
when the notion of common defense came up as defined in the 
Constitution. I think we are seeing a re-definition of what 
that means.
    In the past, a banking system didn't seem to be something 
that would be critical to national security. But if you look at 
the implications of loss of time and what might happen to the 
banking system or cyber denial of service or other attacks, I 
think we are reshaping what actually the common defense means 
and what our responsibilities are related to that. And it is a 
conversation that is in progress.
    Mr. Rutherford. Thank you, sir.
    And I would also just make an observation that when we 
talked about the jamming and those who have been prosecuted and 
really the lack of significant penalties going along with that, 
we see the same thing on the cyber side.
    And I really think, Mr. Chairman, this is one area where 
Congress should certainly step up and address the lack of real 
penalties for some of these violations, particularly in the 
finance and commerce world, but also in protecting our space 
assets as well. And I think that is something that we should, 
as legislators, should certainly be looking at very strongly.
    Would you support that concept?
    Admiral Allen. Yes, sir. Let me just make sure I was clear 
on my comments. There are some penalties associated with the 
illegal activities. The question is, are they significant 
enough to deter activity? Are they enforceable? And do we have 
a unity of effort in how we are addressing the problem?
    And all of that, in my view, speaks to room for 
improvement.
    Mr. Rutherford. General Shelton.
    General Shelton. Interestingly enough, GPS jamming has been 
used to block criminal activity, you know, put a jammer in 
place so the criminal can't be tracked. So, yes, sir, more 
penalties would be a good thing.
    Mr. Rutherford. Thank you.
    Mr. Nimmich, did you want to comment on that?
    Mr. Nimmich. It really doesn't fall under emergency 
management in that regard, sir. But clearly, one of the 
challenges you have gotten in past experiences, it is not just 
the penalties, but the infrastructure to be able to identify 
where the jammer is and take action to prevent that jammer. We 
still have not developed the countermeasures for jamming that 
are necessary to maintain the reliability of the system.
    Mr. Rutherford. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes for a closing question the 
gentleman from California, Mr. Garamendi.
    Mr. Garamendi. I noticed Mr. Cooper just arrived, so I am 
going to make this a very quick question.
    Mr. Bridenstine raised the question of the potential for 
eLORAN in a military situation. There are some systems that 
could work, but I don't see how they would work for the 
precision munitions that you might fly on your plane. But there 
are some ground-based systems out there that are either in 
place or about to be put in place.
    But the eLORAN is basically continental United States and 
Alaska and it could be offshore. It goes about a thousand miles 
offshore.
    But my question is this and this is part of what Mr. 
Bridenstine was going at and that is positioning. Can eLORAN 
give an accurate position? We know that its timing is nearly as 
accurate or is as accurate as GPS, but how about positioning 
and navigation? If it were established within the continental 
United States, could it give good positioning and navigational 
work?
    And I guess to any of you, but let us start with Admiral 
Allen and then the rest of you can jump in.
    Admiral Allen. It could. The level of accuracy related to 
LORAN has to do with the physical parameters of the distance 
between the antenna and the reception. So you would have to 
decide, what would be the level of reliability and signal 
strength and accuracy that you wanted. The more accurate you 
get, the more sophisticated and expensive the system is going 
to be to do that.
    But we are looking at ability to back up the GPS when it is 
needed. And I think that would have to be discussed. You can 
crank that down to a pretty fine degree of accuracy, but there 
is a question of cost and the infrastructure that would be 
required to support it.
    Mr. Garamendi. And that is really the number of towers that 
you would place and where you would place them.
    Admiral Allen. That is correct. And if I could just add on, 
you were correct earlier, the current version of the eLORAN 
system would be for the U.S. area to basically provide a backup 
in that area below the GPS coverage that is current in the GPS. 
You could conceivably have a global backup system, but that 
would be an extensive, extensive eLORAN system.
    Mr. Garamendi. I yield back my time. I see my colleague has 
arrived, he seems to have been satisfied listening in on all of 
this.
    Mr. Rogers. Well, I want to thank the witnesses for your 
participation today. This has been a very important topic to 
help us focus on it also, but raise awareness that we need to 
be taking some action. So thank you for being here and your 
participation.
    And with that, we are adjourned.
    [Whereupon, at 3:11 p.m., the subcommittees were 
adjourned.]

     
=======================================================================

                           A P P E N D I X

                             March 29, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 29, 2017

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
